CERTIFICATE OF SERVICE
No. 20-7460
Carlos Rodriguez Fernandez
Petitioner

v.
United States,

Respondent.
I, Donna Lee Elm, do hereby certify that, on this 8th day of June, 2021, I
caused one copy and an electronic copy of the Reply Brief of Petitioner in the
foregoing case to be served electronically and by first class mail, postage prepaid, on
the following party:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
/s/ J. Donna Lee Elm
DONNA LEE ELM *
LAW PRACTICE OF DONNA
ELM
1465 W. Wagon Wheel
Road
Cottonwood, AZ 86326
(602) 299-7022
donnaelm1014@gmail.com

